                                     SOCIAL SECURITY
MEMORANDUM

Date:   September 30, 2009                                                            Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Implementation of the Social Security Administration's Security Performance Metrics
        Program (A-14-10-11002)


        The attached final quick response evaluation presents the results of our review. Our
        objective was to determine whether the Social Security Administration’s plan for
        developing and implementing a security performance metrics program met applicable
        Federal requirements. Specifically, this evaluation focused on the concerns expressed
        by the Information Security and Privacy Advisory Board and to ensure the Agency
        complied with the National Institute of Standards and Technology Special Publication
        800-55 Revision 1, Performance Measurement Guide for Information Security. This
        evaluation provides a status of the Agency’s efforts to implement a security
        performance metrics program.

        If you wish to discuss the final report, please call me or have your staff contact
        Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                         Patrick P. O’Carroll, Jr.

        Attachment
    QUICK RESPONSE
     EVALUATION
Implementation of the Social Security
Administration's Security Performance
          Metrics Program
             A-14-10-11002




            September 2009
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o n fid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a in s t fra u d , wa s te a n d a b u s e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e p e n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a g e n c y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a g e n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re g a rd in g e xis tin g a n d p ro p o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p o we rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wh a t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e wh ile e n c o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                                                         Background
OBJECTIVE
Our objective was to determine whether the Social Security Administration’s (SSA) plan
for developing and implementing a security performance metrics program met
applicable Federal requirements. We performed this evaluation to address information
security concerns expressed by the Information Security and Privacy Advisory Board
(ISPAB) 1,2 and to ensure the Agency complied with the National Institute of Standards
and Technology (NIST) Special Publication (SP) 800-55 Revision 1, Performance
Measurement Guide for Information Security. 3 This evaluation provides a status of the
Agency’s efforts to implement a security performance metrics program.

BACKGROUND
Information security performance metrics are used to facilitate decision making and
improve performance and accountability through the collection, analysis, and reporting
of relevant performance-related data. The purpose of measuring performance is to
review the status of monitored activities and facilitate improvement in those activities by
applying corrective actions based on observed measurements. Implementing a
security metrics program will

    •   increase accountability for information security performance,
    •   improve effectiveness of information security activities,
    •   demonstrate compliance with laws, rules and regulations, and
    •   provide quantifiable inputs for resource allocation decisions.

Performance metrics are used to weigh the benefits of adding security measures to
information technology (IT) operations and measure the benefits of using these security
metrics against costs. The requirement to measure information security performance is
driven by regulatory, financial, and organizational reasons. A number of existing laws,
rules, and regulations cite information performance measurements in general, and
information security performance measurements in particular, as a requirement. These
laws include the:

1
 ISPAB was originally created by the Computer Security Act of 1987 (Pub. L. No. 100-235) as the
Computer System Security and Privacy Advisory Board. As a result of the Federal Information Security
Management Act (FISMA) (Pub. L. No. 107-347, Title III, Section 301 et seq.), the Board's name was
changed, and its mandate was amended.
2
  FISMA letter to the Honorable Jim Nussle, Director, Office of Management and Budget (OMB),
July 2008. The letter offers ISPAB recommendations to OMB regarding the efficacy of security metrics in
regard to FISMA.
3
 NIST SP 800-55 Revision 1, Performance Measurement Guide for Information Security, issued
July 2008.

Implementation of SSA’s Security Performance Metrics Program (A-14-10-11002)                           1
       •   Clinger-Cohen Act, 4
       •   Government Performance and Results Act, 5
       •   Government Paperwork Elimination Act, 6 and
       •   FISMA. 7

On July 30, 2008, the Chairman of ISPAB sent a letter to OMB expressing concerns
with current information security performance metrics developed under FISMA. ISPAB 8
questioned whether the metrics OMB developed under FISMA improved an agency’s
understanding and performance of Government security. The letter stated that this
process has become overly compliance-driven, with excessive attention to fulfilling
certification and accreditation and other reporting processes at the expense of
implementing, measuring, and improving true security performance. 9,10 As Congress
considers new legislation, one of the fundamental questions is whether FISMA’s current
reporting requirements address the core question of whether agencies’ security
measures are functioning as intended. 11

ISPAB recognized three worthwhile metrics within the FISMA framework that include
traditional perimeter measures, such as intrusion detection, 12 penetration




4
    Pub. L. No. 104-106.
5
    Pub. L. No. 103-62.
6
    Pub. L. No. 105-277.
7
  Pub. L. No. 107-347. FISMA requires that Federal agencies develop, document, and implement an
agency-wide information security program to provide security for the information and information systems
that support the agencies’ operations and assets.
8
    See Footnote 2.
9
    See Footnote 2.
10
  NIST SP 37, Guide for the Security Certification and Accreditation of Federal Information Systems,
pp. 1-2, May 2004. Certification is the comprehensive assessment of the management, operational, and
technical security controls in an information system. Accreditation is the official management decision to
authorize operation of an information system.
11
  Senator Tom Carper introduced U.S. Senate bill S.921-United States Information and Communications
Enhancement Act of 2009 in April 2009 that would replace FISMA.
12
   NIST SP 800-94, Guide to Intrusion Detection and Prevention Systems, section ES-1, February 2007.
Intrusion detection is the process of monitoring the events occurring in a computer system or network and
analyzing these events for signs of possible incidents, which are violations or imminent threats of violation
of computer security policies, acceptable use policies, or standard security practices.

Implementation of SSA’s Security Performance Metrics Program (A-14-10-11002)                               2
testing, 13 and incident response. 14 However, when these measures are obtained, the
results are lost amidst the need to comply with the much larger set of FISMA-related
procedural requirements. 15

ISPAB made the following recommendations to improve the security performance
metrics program for Government agencies.

       •   Revise FISMA and related policy and guidance so that agency and contract
           incentives will be able to measure and improve actual security.

       •   OMB and NIST should work with agency Chief Information Officers (CIO) to
           review FISMA policy and guidance to measure and improve security in a way
           that manages risk and improves program delivery and eliminates all
           unnecessary provisions.

       •   FISMA policy and guidance should encourage accountability for security
           program performance, through rewards for progress and the maintenance of
           strong outcomes and consequences for deterioration and continued weak
           outcomes.

       •   OMB should issue metrics required under a new FISMA program as early as
           possible in the fiscal year for which reports are made, rather than late in the year
           given the many competing demands of the IT calendar.

       •   OMB should use its procurement policy authority to amend the Federal
           Acquisition Regulation, so agency contract documents give industry incentives to
           build and measure security based on the same outcome-oriented metrics that
           are issued in OMB policy and NIST guidance and so that these documents do
           not require unrelated security activities that add costs and burden to the
           acquisition system with little or no return.

In July 2008, NIST SP 800-55 Revision 1 16 was issued to assist Government agencies
in the development, selection, and implementation of measures that indicate the
effectiveness of information security controls.


13
  NIST SP 800-115, Technical Guide to Information Security Testing and Assessment, section 5-2,
September 2008. Penetration testing is security testing in which assessors mimic real-world attacks to
identify methods for circumventing the security features of an application, system, or network.
14
  Appendix III OMB Circular No. A-130, Security of Federal Automated Information Resources, p. 3.
Incident response capability ensures that there is a capability to provide help to users when a security
incident occurs in the system and to share information concerning common vulnerabilities and threats.

15
  Letter to the Honorable Jim Nussle, Director, OMB, July 2008. The letter offers ISPAB
recommendations to OMB regarding the efficacy of security metrics in regard to FISMA.
16
     NIST SP 800-55 Revision 1, Performance Measurement Guide for Information Security, p. 1.

Implementation of SSA’s Security Performance Metrics Program (A-14-10-11002)                               3
In October 2008, we issued a memorandum to SSA advising it of ISPAB’s concerns. In
response to our memorandum, SSA indicated its intentions to comply with any Federal
legislation or directives related to incorporation of performance-based metrics. Given
that SSA had not implemented its plan for an information security performance metrics
program at that time, we were unable to determine whether the Agency’s plans met
applicable Federal requirements. As a result, we performed this evaluation to provide a
status of the Agency’s efforts to develop a performance metrics program for its security
program as well as offer suggestions for management’s consideration.




Implementation of SSA’s Security Performance Metrics Program (A-14-10-11002)           4
                                                   Results of Review
Based on our evaluation, SSA has been responsive to our October 2008 memorandum
and has initiated steps to develop a security performance metrics program. The
proposed program builds on the Agency’s current reporting model, which is based on
FISMA, and envisions including critical elements for a more comprehensive program.

SSA’s Current Information Security Performance Metric Reporting Efforts

Under FISMA, the Agency conducts numerous activities to safeguard information
systems and resources. SSA conducts rigorous testing of its information systems and
oversees a range of ongoing IT security activities. Some of the security activities
conducted and performance metrics reported under the FISMA framework are as
follows.

•   The Agency performs annual testing of its IT security controls as part of the annual
    FISMA evaluation and financial statement audit. Identified weaknesses and
    deficiencies are documented using an automated tracking tool. A Plan of Action and
    Milestones (POA&M) is created to resolve each identified weakness. POA&Ms are
    reported annually and quarterly to OMB.
•   All SSA personnel receive IT security awareness training annually. The Office of the
    CIO (OCIO) works with the Office of Acquisition and Grants to provide awareness
    training to SSA contractor personnel. Additionally, SSA provides specialized training
    to personnel with significant security responsibilities.
•   SSA conducts extensive network and workstation scanning to identify and remove
    harmful or inappropriate files that violate the Agency’s IT security policies.

In addition to FISMA-related activities, SSA complied with other directives issued by
OMB designed to strengthen Federal IT security programs. One example of a current
OMB initiative is the Federal Desktop Core Configuration (FDCC). FDCC provides
secure common desktop configurations for Windows operating systems.

SSA’s Efforts to Develop a More Comprehensive Security Performance Metrics
Program

In October 2008, we issued a memorandum to SSA emphasizing the importance of
implementing a Security Performance Metrics program (see Appendix B). The
memorandum highlighted the Government information security community’s focus on
information security performance metrics—specifically the concerns raised by ISPAB.
The ISPAB memorandum indicated that outcome-based metrics would make Agency
security performance more transparent and emphasized a concrete set of actions
needed to improve the underlying trustworthiness of IT systems. Furthermore, these
metrics should (1) focus on risk management rather than compliance; (2) have a line-of-


Implementation of SSA’s Security Performance Metrics Program (A-14-10-11002)            5
sight to business and program goals rather than IT operations; and (3) assess both
status and progress.

SSA began developing a more comprehensive information security metrics program.
One of the key steps taken by SSA to assist with developing the Agency’s security
metrics program was OCIO’s Office of Information Technology and Security Policy
(OITSP) awarding a task order to Booz Allen Hamilton (BAH) in September 2008. 17
BAH’s objective was to analyze and define IT security measures and metrics to track
the impact of risk management goals through identifying practices that evaluate security
control implementation across the SSA enterprise. BAH was to develop a handbook
recommending program and system-level metrics for SSA that would establish a direct
relationship between the corresponding program activities and SSA’s mission.

In April 2009, BAH provided the Agency with an initial draft handbook. This document
analyzed SSA’s current IT security metrics collection processes and summarized the
actions needed for mature metrics development including steps needed to create and
maintain an IT security performance measurement program. SSA expressed concerns
with the initial handbook because BAH included highly sensitive information that
described the Agency’s current collecting and reporting processes for its security
metrics that feed into four quarterly reports. 18 SSA requested BAH remove this
information from the handbook to protect the privacy of the Agency’s data collecting and
reporting processes.

In May 2009, BAH submitted a revised draft handbook. This handbook provided the
information security management and system owners with the necessary guidance and
procedures for collecting, storing, analyzing, and reporting on security performance
metrics. Both draft handbooks outlined steps to implement a metrics program as
defined by the NIST SP 800-55 Revision 1, Security Metrics Guide for Information
Technology Systems. The Agency was generally satisfied with BAH’s revised draft
handbook. In July 2009, the OCIO provided the BAH draft handbook to other Agency
components for comment. SSA plans to implement the BAH final handbook in January
2010. The Agency stated that the security performance metrics handbook will serve as
the OCIO’s synthesis of the high level requirements from NIST and OMB for the
Agency. Given the existing disparate and federated management structure of SSA, the
security performance metrics handbook is not intended to provide specific granular and
authoritative metrics for the Agency. SSA intentionally designed the security
performance metrics handbook to provide examples of best practices for component

17
     The BAH task order was $107,000 under contract #SS-00-08-40029 Task # 4.
18
  SSA Security Metrics Handbook, Version 1.1, April 6, 2009, section 3, p. 9. OITSP currently collects
security metrics from a variety of sources to prepare the four quarterly reports. These sources include
FISMA Information Security, POA&Ms, Senior Agency Officials for Privacy, and OIG reports. Additionally,
OITSP provides input to SSA’s e-Government IT Security Scorecard and completes the data collection
and updates on a quarterly basis as required by OMB guidelines. These quarterly activities help prepare
the program office for the larger Agency annual report which feeds directly into SSA’s IT Security report
card grade for the year. This grade, provided by Congress, evaluates the implementation of FISMA
requirements.

Implementation of SSA’s Security Performance Metrics Program (A-14-10-11002)                           6
reconciliation and application. SSA needs to ensure that guidance and direction is
sufficient to provide for the development and implementation of a sound information
security performance metrics program.

Further Development of SSA’s Information Security Metrics Program

An information security measures development process consists of two major activities:

•     Identification and definition of the current information security program.

•     Development and selection of specific measures to gauge the implementation,
      effectiveness, efficiency, and impact of the security controls. 19

While we acknowledge the Agency’s proactive efforts by having BAH develop the
performance metrics handbook, we encourage SSA to ensure that the above activities
are an integral part of its process for developing IT security performance metrics.

SSA acknowledged the need and has taken steps to develop a more comprehensive
information security metrics performance program. However, based on our analysis, we
identified some areas the Agency should be aware of as it moves forward in developing
a more comprehensive security metrics program.

NIST recommended specific steps in the measure development process. 20 The
measure development process involves the following phases.

       •   Stakeholder interest identification.
       •   Goals and objective definition.
       •   Information security policy, guidelines, and procedures review.
       •   Information security program implementation review.
       •   Measures development and selection.

SSA identified relevant stakeholders for the information security performance metrics
program. However, NIST states an organization should identify and document system
security performance goals and objectives. 21 SSA provided the Agency’s strategic
goals and objectives in both BAH drafts; however, the information security goals and
objectives were missing in the latest version of the BAH draft handbook. Information
security performance goals state the desired results of an information program
19
     NIST SP 800-55 Revision 1, Performance Measurement Guide for Information Security, Sec. 5, p. 25.
20
  NIST SP 800-55 Revision 1, Performance Measurement Guide for Information Security, Sec. 5, p. 25.
The measures development process identifies relevant stakeholders and their interests in information
security measurement.
21
  NIST SP 800-55 Revision 1, Performance Measurement Guide for Information Security, Sec. 5, p. 26.
The measures development process identifies and documents information system security
performance goals and objectives that would guide security control implementation for the information
security program of a specific information system.

Implementation of SSA’s Security Performance Metrics Program (A-14-10-11002)                             7
implementation, such as, “All employees should receive adequate information security
awareness training.” Information security performance objectives enable
accomplishment of goals by identifying practices defined by information security policies
and procedures that direct consistent implementation of security controls across the
organization. NIST guidance provides an example of how an agency would link its
security performance goal, “All new employees receive new employee training” to the
supporting objectives. The example shows that employee training objectives include
providing a summary of the Rules of Behavior as well as a summary of, and a reference
to, the organization’s information security policies and procedures. In reviewing the
BAH draft handbook, the information security goals were identified; however, the
specific corresponding objectives and means of accomplishing the information security
goals were not yet fully defined.

In the measures development process, an organization should establish policies,
guidelines, and procedures that focus on organization-specific information security
practices. SSA is in the process of establishing the policies, guidelines, and procedures
for its information security metrics program with an anticipated completion date of
January 2010. These policies, guidelines, and procedures should describe how
implementing security controls, requirements, and techniques lead to accomplishing
information security performance goals and objectives.

Further, SSA has not yet fully addressed the information security program
implementation review and measures development and selection steps. The
information security program implementation review allows an organization to identify
any existing measures and data repositories that can be used to derive measures data
for review. In the measures development and selection stage, measures dealing with
overall information security program performance should:

•   Be mapped to information security goals and objectives that may encompass
    performance of information security across the spectrum of security controls.
•   Use data describing the information security program performance to generate
    required measures.

We believe SSA should define the goals and objectives for the information security
performance metrics program according to NIST guidance. The Agency should also
address the remaining three steps of the measures development process as outlined in
the NIST guidance.




Implementation of SSA’s Security Performance Metrics Program (A-14-10-11002)            8
Moreover, we recently issued an audit report that identified weaknesses that could
prevent an information security performance metrics program from being successful. 22
This report found that SSA’s OCIO did not have sufficient delegated authority or
resources to carry out its security monitoring and management responsibilities. SSA
should consider these issues while developing and implementing its information security
performance metrics program and address them, as appropriate.

Measuring performance provides managers crucial information on which to base their
organizational and management decisions. The development and implementation of a
sound information security performance metrics program will help ensure SSA moves
toward a reliable, resilient, and trustworthy digital infrastructure for the future. 23

SSA’s information security performance metrics program should focus on measuring the
impact and effectiveness of the Agency’s security activities and not merely compliance
with laws and regulations. Otherwise, SSA will not be able to determine whether its
information security program is truly meeting its goals and protecting the Agency’s
sensitive information.




22
  OIG, Follow up: Social Security Administration’s Computer Security Program Compliance
(A-14-09-19048), issued September 24, 2009.
23
 Melissa Hathaway, former Cybersecurity Chief at the National Security Council, Cyberspace Policy
Review, May 2009.

Implementation of SSA’s Security Performance Metrics Program (A-14-10-11002)                        9
                                        Matters for Consideration
SSA has one of the largest data processing centers with one of the largest collections of
sensitive personal data. The Agency’s computer system contains demographic,
earnings, and/or benefit information for almost every American. Moreover, SSA
processes over 75 million business transactions per day and stores almost 250 million
medical records, while adding 2 million more each week. Its databases contain
sensitive personally identifiable information, such as names, addresses, dates of birth,
mothers’ maiden names, earnings, and Social Security numbers. In addition, the
Agency exchanges over 1 billion data files annually with Government and business
entities for benefit management and homeland security purposes.

Given the characteristics and volume of data maintained and processed at SSA, it is
imperative that SSA bolster its existing information security program by establishing
metrics to reflect how well the program is achieving its goal of information protection.
The need for making information security and its performance metrics a priority is
supported by a recent Presidential report, Cyberspace Policy Review: Assuring a
Trusted and Resilient Information and Communications Infrastructure. In this report, the
Special Advisor to the President on Cybersecurity recommended designating
cybersecurity as one of the President’s key management priorities and establishing
performance metrics. 24 The report provides a formal cybersecurity program
assessment framework where “Departments and agencies would define their specific
program’s purpose and goal as well as identify metrics to evaluate whether the goals
are achieved.”

The attacks on networks in the United States and South Korea are the latest reminder
that cybersecurity remains a pressing concern in the 21st century. As evidenced by a
recent report, a series of cyber attacks on computer networks in South Korea and the
United States was apparently the work of North Korean hackers. While SSA may not
have been a direct target of the North Korean attacks, these attacks demonstrate the
need to continuously monitor information systems and the security measures employed
to protect them.

Pending legislation introduced by Senator Tom Carper 25 further emphasizes
performance metrics as a requirement that involves continuous testing and evaluation of
information security controls and techniques to ensure they are effectively implemented.

24
   Melissa Hathaway, former Cybersecurity Chief at the National Security Council, Cyberspace Policy
Review, May 2009. The President directed a 60-day, comprehensive, “clean-slate” review to assess U.S.
policies and structures for cybersecurity. Cybersecurity policy includes strategy, policy, and standards
regarding the security of and operations in cyberspace. It encompasses the full range of threat reduction,
vulnerability reduction, deterrence, international engagement, incident response, resiliency, and recovery
policies and activities, including computer network operations, information assurance, law enforcement,
diplomacy, military, and intelligence missions as they relate to the security and stability of the global
information and communications infrastructure.
25
     S.921, United States Information and Communications Enhancement Act of 2009, April 28, 2009.

Implementation of SSA’s Security Performance Metrics Program (A-14-10-11002)                           10
It is apparent that the concerns of the Administration and Congress are well-justified.
To that end, their recommendations, as well as those of the ISPAB for establishing
effective information security performance metrics, offer a viable approach to track the
success of an information security program.

We understand the Agency is developing an information security performance metric
program. We acknowledge and applaud SSA for being proactive in developing this
program despite it not being required or mandated at this time. We encourage the
Agency to continue these efforts and take the necessary steps to fully develop its
information security performance metrics program.

Based on the present state of the Agency’s metrics program, we are providing the
following comments for SSA’s consideration. These comments should help improve the
Agency’s program and ensure its success. To assist SSA in addressing applicable
Federal guidance for developing and implementing an Agency-wide security metrics
program, we believe SSA should consider:

    •   Ensuring the information security metrics performance program addresses the
        key measure development steps recommended by NIST.
    •   Implementing an Agency-wide information security performance metrics program
        in accordance with applicable Federal guidance. These measures should be
        measurable, repeatable, consistent, and actionable.




Implementation of SSA’s Security Performance Metrics Program (A-14-10-11002)               11
                                           Appendices
APPENDIX A - Acronyms
APPENDIX B - Efficacy of Federal Security Performance Metrics Memorandum
APPENDIX C - Scope and Methodology
APPENDIX D - OIG Contacts and Staff Acknowledgments




Implementation of SSA’s Security Performance Metrics Program (A-14-10-11002)
                                                                         Appendix A

Acronyms

    BAH                Booz Allen Hamilton

    CIO                Chief Information Officer

    FDCC               Federal Desktop Core Configuration

    FISMA              Federal Information Security Management Act

    FY                 Fiscal Year

    ICE                Information and Communication Enhancement

    ISPAB              Information Security and Privacy Advisory Board

    IT                 Information Technology

    NIST               National Institute of Standards and Technology

    OCIO               Office of the Chief Information Officer

    OIG                Office of the Inspector General

    OITSP              Office of Information Technology and Security Policy

    OMB                Office of Management and Budget

    POA&M              Plan of Action and Milestones

    Pub. L. No.        Public Law Number

    SP                 Special Publication

    SSA                Social Security Administration




Implementation of SSA’s Security Performance Metrics Program (A-14-10-11002)
                                                                         Appendix B

Efficacy of Federal Security Performance
Metrics Memorandum




Implementation of SSA’s Security Performance Metrics Program (A-14-10-11002)
                                      SOCIAL SECURITY
MEMORANDUM

Date:   October 20, 2008                                                       Refer To:

To:     See Below

From:   Assistant Inspector General
         for Audit

Subject: Efficacy of Federal Security Performance Metrics



        The Government information security community has focused increased attention on
        information security performance metrics. In July 2008, the Information Security and
        Privacy Advisory Board (ISPAB) issued a memorandum to the Office of Management
        and Budget (OMB) on the efficacy of Government security performance metrics and the
        extent to which such metrics can serve as indicators of security progress and
        performance (see Attachment A). Specifically, ISPAB questions whether metrics
        developed by OMB under the Federal Information Security Management Act of 2002
        (FISMA) are focused in a way that improves agency understanding and performance of
        Government security. Almost concurrent with ISPAB’s memorandum to OMB was the
        National Institute of Standards and Technology’s issuance of the Performance
        Measurement Guide for Information Security (Special Publication 800-55 Revision 1).
        This guidance is recognized as a means to assist in the development, selection and
        implementation of measures to indicate the effectiveness of information security
        controls.

        The ISPAB found that the FISMA metrics program did enhance focus on agency
        security activities. However, this process has become overly compliance-driven, with
        excessive attention to fulfilling Certification & Accreditation and other reporting
        processes at the expense of implementing, measuring, and improving true security
        performance. According to ISPAB, agencies often write or contract for security
        documentation after the fact, rather than embedding and documenting security during
        development to ensure security is built into programs and systems up front.




        Implementation of SSA’s Security Performance Metrics Program (A-14-10-11002)       B-1
Page 2 – ISPAB

ISPAB recommended that FISMA, and related policy and guidance, be revised to
establish agency and contract incentives to measure and improve security. Outcome-
based metrics would make agency security performance more transparent and point to
a concrete set of actions related to improvements, as well as increase underlying
trustworthiness of information technology systems. These metrics should (1) focus on
risk management, rather than compliance; (2) have a line of sight to business and
program goals rather than information technology operations; and (3) assess both
status and progress.

In light of the increased focus on information security performance metrics and the
Government Accountability Office’s current audit of SSA’s information security metrics,
we are providing copies of the ISPAB memorandum (Attachment A) and the National
Institute of Standards and Technology publication (Attachment B
http://csrc.nist.gov/publications/nistpubs/800-55-Rev1/SP800-55-rev1.pdf). To help us
understand the Agency’s posture for responding to these items, we are requesting that
you provide a written response indicating whether SSA has already taken or plans to
take action to address the concerns identified in the ISPAB memorandum. We would
appreciate a response by November 7, 2008. If you have any questions or concerns
please contact me at 410-965-9700.


                                                  /s/
                                                  Steven L. Schaeffer

Addressees:
Deputy Commissioner for Budget, Finance and Management
Chief Information Officer
Deputy Commissioner for Systems

Attachments

cc:
P. O’Carroll
D. Foster
J. Kissko




Implementation of SSA’s Security Performance Metrics Program (A-14-10-11002)         B-2
                                                                               Attachment A




Implementation of SSA’s Security Performance Metrics Program (A-14-10-11002)            B-3
Implementation of SSA’s Security Performance Metrics Program (A-14-10-11002)   B-4
Implementation of SSA’s Security Performance Metrics Program (A-14-10-11002)   B-5
Implementation of SSA’s Security Performance Metrics Program (A-14-10-11002)   B-6
                                                                                   Appendix C

Scope and Methodology
To accomplish our objective, we:

   Reviewed applicable Federal laws, directives, and other guidance, as well as
    industry standards and best practices.

   Obtained and reviewed the Social Security Administration’s (SSA) Information
    Security Performance Metrics program.

   Reviewed Federal Information Security Management Act (FISMA) Fiscal Year 2008
    guidance.

   Reviewed the Office of the Inspector General’s (OIG) FY 2008 FISMA report and
    other relevant OIG reports.

   Interviewed personnel from SSA’s Office of the Chief Information Officer.

   Reviewed documentation from other Federal agencies’ information security
    performance metrics program.

The results of our review are based on the above information provided by SSA. We
performed our review during July and August 2009 in Baltimore, Maryland. The entities
reviewed were the Offices of the Chief Information Officer and Deputy Commissioner for
Systems. We conducted our review in accordance with the President’s Council on
Integrity and Efficiency’s 1 Quality Standards for Inspections.




1
  In January 2009, the President’s Council on Integrity and Efficiency was superseded by the Council of
the Inspectors General on Integrity and Efficiency, Inspector General Reform Act of 2008, Pub. L. No.
110-409 § 7, 5 U.S.C. App. 3 § 11.


Implementation of SSA’s Security Performance Metrics Program (A-14-10-11002)
                                                                         Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts
       Brian Karpe, Acting Division Director, Information Technology Audit Division

       Phil Rogofsky, Audit Manager

Acknowledgments
In addition to those named above:

       Mary Ellen Moyer, Audit Manager

       Tina Nevels, Auditor

       Cheryl Dailey, Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-14-10-11002.




Implementation of SSA’s Security Performance Metrics Program (A-14-10-11002)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
